                                                          U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                                OFFICE OF THE INSPECTOR GENERAL
                                                                                 OFFICE OF AUDITS




                                      Final Audit Report


Subject:



   AUDIT OF THE INFORMATION TECHNOLOGY

          SECURITY CONTROLS OF THE

   U.S. OFFICE OF PERSONNEL MANAGEMENT'S

              BENEFITS FINANCIAL

             MANAGEMENT SYSTEM

                     FY 2010

                                               Report No. 4A-CF-OO-IO-018


                                               Date:                  September 10, 2010




                                                               -·CAUTION-·

Thi.' audit report has bt'ell l1htributcd to F{'l1cral officials whQ IH'e- Rsponsiblc for lhe :ldmilli.'lralion of th(' andiu:d pl'ognllll. This audit

rl"pori may contain propri{'ta~' lIata wbich i~ prol(·(tl."d by Fcdtor""II:lw (ISll,S.C. 1905). Thul'fort.'. while Ihi\ audit report h a\'ailablc­

under Ihe Frc-edom oflnformulioll . \et and made \\\'ailabll' to the public onlhc OIG webpflgt". cautioll tH:'eds to be ('xCI"cistd beron..

rt.'[("l.~ing Ihl' repnrllO the l?:eneral public as if may contain propril'hHy information thaI was redacted from Ihl' publicl~' dL~lributl'd copy.

                         UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                           Washington. DC 20415



  Office of lhe
Inspector General

                                           Audit Report


                            U.S. OFFICE OF PERSONNEL MANAGEMENT

                       AUDIT OF THE INFORMAnON TECHNOLOGY SECURITY

                    CONTROLS OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT'S

                           BENEFITS FINANCIAL MANGE ME NT SYSTEM

                                             FY 20IO


                                          WASHINGTON, D.C.



             .l!:========================d


                                  Report No. 4A-CF-OO-IO-OI8


                                  Date:          September 10, 2010




                                                              ZJ2e~Michael R. Esser
                                                                   Assistant Inspector General
                                                                     for Audits




       WWW.OPI1\.~OV                                                                   WWW.US;:ljobS·GOV
                          UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                                 Washington, DC 20415



  Office of the
Inspector General

                                               Executive Summary

                                   U.S. OFFICE OF PERSONNEL MANAGEMENT


                         AUDIT OF THE INFORMATION TECHNOLOGY SECURITY

                      CONTROLS OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT'S

                            BENEFITS FINANCIAL MANAGEMENT SYSTEM

                                               FY2010


                                                    WASHINGTON, D.C.




                                           Report No. 4A-CF-OO-IO-018


                                            Date:         September 10, 2010

             This [mal audit report discusses the results of our review of the infonnation technology security
             controls of the U.S. Office of Personnel Management's (OPM) Benefits Financial Management
             System (BFMS). Our conclusions are detailed in the "Results" section of this report.

             BFMS is one ofOPM's 43 critical IT systems and is comprised of multiple applications that
             provide management Illld accounting support to OPM programs. Although all of the applications
             that comprise BFMS are housed on OPM's mainframe environment, it became apparent during
             this audit that the Office of the Chief Financial Officer (OCFO) does not have a clear
             understanding of which specific applications are actually a part of the BFMS mnbrella of
             systems. Several iterations of the BFMS inventory were presented to Office of the Inspector
             General (OIG) auditors throughout the audit, and the versions differed with both the addition and
             subtraction of applications from the inventory.

             The fact that the specific applications that are part of BFMS have not been clearly defined has
             limited the OCFO's ability to adequately manage several security-related elements required by
             FISMA. Specifically, the BFMS independent security control test, the internal self assessment of
             security controls, and the system's contingency plan could not have had accurately defined
             scopes. We consider this issue to be a significant deficiency in the BFMS control structure.




        www.opm.goy                                                                            www.usajobs.goy
In addition to the concerns related to the BFMS application inventory, the OIG documented the
following opportunities for improvement:
   •	 The information system security plan for BFMS does not contain several critical elements
      required by National Institute of Standards and Technology (NIST) Special Publication
      800-18.
   •	 The security controls classified as common, application specific, or hybrid during the
      independent security test and evaluation were not consistent with the control
      classification done by the OCFO during the security control self-assessment.
   •	 The BFMS self-assessment indicated that there were zero security weaknesses in the
      system. However, an OIG review of the same security controls indicated that weaknesses
      do exist.
   •	 A contingency plan has been developed for BFMS. However, several areas of the

      contingency plan could be improved.

   •	 The BFMS Privacy Impact Assessment (PIA) was conducted in accordance with the
      requirements ofOPM's PIA Guide. However, OPM's PIA guide is missing several
      elements required by the Office of Management and Budget (OMB). Consequently, the
      BFMS PIA is missing these elements as well. Additionally, there is no evidence that the
      BFMS PIA has been reviewed by the system owner on an annual basis as required by
      OMB.
   •	 OIG independently tested 25 of the NIST 800-53 controls for BFMS and found that 6 of
      these security controls were not in place during the fieldwork phase of the audit.

In addition, the OIG reviewed several elements ofthe BFMS security program that appear to be
in full FlSMA compliance:
   •	 A security certification and accreditation (C&A) ofBFMS was completed in August
      2007 and another C&A is due for completion by August 2010.
   •	 The OIG agrees with the security categorization of moderate for BFMS.
   •	 A risk assessment was conducted for BFMS in 2007 that addresses all the required
      elements outlined in relevant NIST guidance.
   •	 The BFMS Plan of Action and Milestones (POA&M) follows the format of the OPM
      POA&M guide, and has been routinely submitted to the Office of the Chief Information
      Officer for evaluation.




                                               11
                                          Contents


Executive Summary                                                                               i

Introduction                                                                                    1

Background                                                                                     1

Objectives                                                                                      1

Scope and Methodology                                                                          2

Compliance with Laws and Regulations                                                          .3

Results                                                                                       .4

      I. Applications Included in the Benefit Financial Management System (BFMS)              .4

     II. Certification and Accreditation Statement.                                            5

    III. FIPS 199 Analysis                                                                    .5

    IV. Information System Security Plan                                                       5

     V. Risk Assessment                                                                        6

    VI. Independent Security Control Testing                                                   7

   VII. Security Control Self-Assessment                                                       8

  VIII. Contingency Planning and Contingency Plan Testing                                      8

    IX. Privacy Impact Assessment                                                             10

    X. Plan of Action and Milestones Process                                                  I I

    XI. NIST SP 800-53 Evaluation                                                             11

Major Contributors to this Report                                                             15

Appendix: Office of the Chief Financial Officer's June 15,2010 response to the OIG's draft audit
report, issued May 4, 2010.
                                        Introduction

On December 17,2002, President Bush signed into law the E-Governrnent Act (P.L. 107-347),
which includes Title III, the Federal Information Security Management Act (FISMA). It requires
(1) annual agency program reviews, (2) annual Inspector General (lG) evaluations, (3) agency
reporting to the Office of Management and Budget (OMB) the results of IG evaluations for
unclassified systems, and (4) an annual OMB report to Congress·sumrnarizing the material
received from agencies. In accordance with FISMA, we evaluated the information technology
(IT) security controls related to the Office of Personnel Management's (OPM) Benefits Financial
Management System (BFMS).

                                         Background
BFMS is one ofOPM's 43 critical IT systems. As such, FISMA requires that the Office of the
Inspector General (OIG) perform an audit ofIT security controls of this system, as well as all of
the agency's systems on a rotating basis.

The Office of the Chief Financial Officer (OCFO) has been designated with ownership of
BFMS. The BFMS system provides the management and accounting support for the Civil
Service Retirement Disability Fund, the Federal Employees' Group Life Insurance program, and
the Federal Employees Health Benefits Program. BFMS is comprised of a set of individual
applications that reside in OPM's mainframe environment. The mainframe infrastructure is
supported by the agency's Data Center Group within the Office of the Chief Information Officer
(OCIO).

This was our second audit of the security controls surrounding BFMS. The [mdings from the
first BFMS audit report, issued in 2004, were closed prior to the start of this audit. We discussed
the results of our audit with OCFO representatives at an exit conference and in a draft audit
report.

                                          Objectives
Our overall objective was to perform an evaluation of security controls for BFMS to ensure that
OCFO officials have implemented IT security policies and procedures in accordance with
standards established by OPM's OCIO. These policies and procedures are designed to assist
program office officials in developing and documenting IT security·practices that are in
substantial compliance with FISMA, as well as OMB regulations and the National Institute of
Standards and Technology (NIST) guidance.

OPM's IT security policies and procedures require managers of all major and sensitive systems
to complete a series of steps to (I) certify that their system's information is adequately protected
and (2) authorize the system for operations. The overall audit objective was accomplished by
reviewing the degree to which a variety of security program elements have been implemented for
BFMS, including:




                                                 I

•	   Certification and Accreditation Statement; .
•	   Federal Information Processing Standard 199 Analysis;
•	   Information System Security Plan;
•	   Risk Assessment;
•	   Independent Security Control Testing;
•	   Security Control Self-Assessment;
•	   Contingency Planning and Contingency Plan Testing;
•	   Privacy Impact Assessment;
•	   Plan of Action and Milestones Process; and
•	   NIST Special Publication (SP) 800-53 Security Controls.

                                Scope and Methodology
This performance audit was conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Accordingly, the audit included an
evaluation of related policies and procedures, compliance tests, and other auditing procedures
that we considered necessary. The audit covered FISMA compliance efforts of OCFO and
OCIO officials responsible for BFMS, including IT security controls in place as of April 2010.

We considered the BFMS internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.

To accomplish our objective, we interviewed representatives ofOPM's OCFO and other
program officials with BFMS security responsibilities. We reviewed relevant OPM IT policies
and procedures, federal laws, OMB policies and guidance, and NIST guidance. As appropriate,
we conducted compliance tests to determine the extent to which established controls and
procedures are functioning as required.

Details of the security controls protecting the confidentiality, integrity, and availability of BFMS
are located in the "Results" section of this report. Since our audit would not necessarily disclose
all significant matters in the internal control structure, we do not express an opinion on the
BFMS system of internal controls taken as a whole.

The criteria used in conducting this audit include:

•	 OPM IT Security Policy;
•	 OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
•	 E-Government Act of 2002 (p.L. 107-347), Title III, Federal Information Security
   Management Act of2002;
•	 NIST SP 800-12, An Introduction to Computer Security;
•	 NIST SP 800-18 Revision I, Guide for Developing Security Plans for Federal Information
   Systems;
•	 NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•	 NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;


                                                 2

•	 NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
   Infonnation Systems;
•	 NIST SP 800-53 Revision 2, Recommended Security Controls for Federal Infonnation
   Systems;
•	 NIST SP 800-60 Volume II, Guide for Mapping Types ofInfonnation and Infonnation
   Systems to Security Categories;
•	 Federal Infonnation Processing Standard Publication 199, Standards for Security
   Categorization of Federal Infonnation and Infonnation Systems; and
•	 Other criteria as appropriate.

In conducting the audit, we relied to varying degrees on computer-generated data. Due to time
constraints, we did not verify the reliability of the data generated by the various infonnation
systems involved. However, nothing came to our attention during our audit testing utilizing the
computer-generated data to cause us to doubt its reliability. We believe that the data was
sufficient to achieve the audit objectives. Except as noted above, the audit was conducted in
accordance with generally accepted government auditing standards issued by the Comptroller
General of the United States.

The audit was perfonned by the OPM Office of the Inspector General, as established by the
Inspector General Act of 1978, as amended. The audit was conducted from December 2009
through April 2010 in OPM's Washington, D.C. office.

                    Compliance with Laws and Regulations
In conducting the audit, we perfonned tests to detennine whether the OCFO's management of
BFMS is consistent with applicable standards. Nothing came to the OIG's attention during this
review to indicate that the OCFO is in violation of relevant laws and regulations.




                                               3

                                            Results


I. Applications Included in the Benefit Financial Management System (BFMS)

  BFMS is comprised of multiple applications that provide management and accounting support
  to OPM's Civil Service Retirement and Disability Fund, the Federal Employees' Group Life
  Insurance Program, and the Federal Employees Health Benefits Program. All BFMS
  applications reside within OPM's mainframe environment, and inherit many security controls
  from this infrastructure. However, throughout the fieldwork phase of this audit, it became
  apparent to OIG auditors that the OCFO does not have a clear understanding of which specific
  applications are actually a part of the BFMS umbrella of systems.

   The 2007 and 2009 versions of the BFMS contingency plan and information system security
   plan (ISSP) each contain lists of applications that are part of BFMS. Although there were no
  .major system changes during this time frame, the lists of applications vary significantly. The
   discrepancies in the BFMS inventory can be attributed to the removal of several systems that
   were actually owned by other OPM program offices or another federal agency, and the addition
                                a
   of an existing system that has different user interface from the other applications, but shares
   the same back-end infrastructure.

  In January 2010, the OCFO provided the OIG with an updated list of applications that differs
  from the 2009 documentation with the inclusion of two additional systems. The OCFO
  provided a subsequent update in March 20 lOin which two systems were subtracted from the
  inventory (not the same two that were added in January 2010). The OCFO stated that the
  BFMS application inventory continues to be a work in progress.

  The fact that the specific applications that are part of BFMS have not been clearly defmed has
  limited the OCFO's ability to adequately manage several security-related elements required by
  FISMA. Specifically, the BFMS independent security control test, the internal self assessment
  of security controls, and the system's contingency plan could not have had accurately defmed
  scopes, resulting in several applications not being properly tested. We consider this issue to be
  a significant deficiency in the BFMS control structure.

  Recommendation 1
  We recommend that the OCFO develop a clearly defined list of applications that are part of
  BFMS.

  OCFO Response:
  "CFO agrees with the recommendation and will provide a clearly defined list ofapplications
  related to BFMS by July 31, 2010."

  Recommendation 2
  We recommend that the OCIO review all applications dropped from the BFMS umbrella of
  systems and appropriately add them to OPM's system inventory.


                                                 4
     OCFO Response:
    "CFO agrees with the recommendation and will review an applications in conjunction with
    the C/O that do not belong to BFMS umbrella ofsystems by July 31,2010."

II. Certification and Accreditation Statement

    A security certification and accreditation (C&A)'OfBFMS was completed in August 2007.

    NIST SP 800-37 "Guide for the Security Certification and Accreditation of Federal
    Information Systems," provides guidance to federal agencies in meeting security accreditation
    requirements. The BFMS C&A appears to have been conducted in compliance with NIST
    guidance.

    OPM's Information Technology Security Officer reviewed the BFMS C&A package and
    signed the system's certification package on August 10, 2007. OPM's Chief Financial Officer
    signed the accreditation statement and authorized the continued operation of the system on
    August 17,2007.

    BFMS is due for a new C&A in August 2010; we will evaluate the new C&A as part of the
    FYIO FISMA audit.

III. FIPS 199 Analysis

    Federal Information Processing Standard (FIPS) Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems, requires federal agencies to
    categorize all federal information and information systems in order to provide appropriate
    levels of information security according to a range of risk levels.

    NIST SP 800-60 Volume II, Appendixes to Guide for Mapping Types of Information and
    Information Systems to Security Categories, provides an overview of the security objectives
    and impact levels identified in FIPS Publication 199.

    The BFMS information system security plan (ISSP) categorizes information processed by the
    system and its corresponding potential impacts on confidentiality, integrity, and availability.
    BFMS is categorized with a moderate impact level for confidentiality, moderate for integrity,
    low for availability, and an overall categorization of moderate.

    The security categorization of BFMS appears to be consistent with the guidance of FIPS 199
    and NIST SP 800-60.

IV. Information System Security Plan

    Federal agencies must implement the information system security controls outlined in NIST SP
    800-53 Revision 2, Recommended Security Controls for Federal Information Systems. NIST


                                                  5

   SP 800-18 Revision I, Guide for Developing Security Plans for Federal Information Systems,
   requires that these controls be documented in an information systems security plan (ISSP) for
   each system, and provides guidance for doing so.

   The ISSP for BFMS was created using the template outlined in NIST SP 800-18. The template
   requires that the following elements be documented within the ISSP:

   •   System Name and Identifier;
   •   System Categorization;
   •   System Owner;
   •   Authorizing Official;
   •   Assignment of Security Responsibility;
   •   System Operational Status;
   •   Information System Type;
   •   General DescriptionIPurpose;
   •   System Environment;
   •   System Interconnection/Information Sharing; and
   •   Laws, Regulations, and Policies Affecting the System.

   The BFMS ISSP contains the majority of the elements outlined by NIST. Although the ISSP
   lists systems that are interconnected with BFMS, it does not contain several critical details of
   these connections as required by the NIST guide. Specifically, the BFMS ISSP does not detail
   the FIPS 199 category, C&A status, or authorizing official of the interconnected systems.

   Recommendation 3
   We recommend that the system interconnection section of the BFMS ISSP be revised to
   include important identifiers of the interconnected systems (FIPS 199 categorization, C&A
   status, and the authorizing official).

   OCFO Response:
   "CFO agrees with the recommendation and will work with the CIO in conjunction to
   determine identifiers ofthe interconnected systems by August 6,2010."

V. Risk Assessment

   A riskmanagement methodology focused on protecting core business operations and processes
   is a key component of an efficient IT security program. A risk assessment is used as a tool to
   identify security threats, vulnerabilities, potential impacts, and probability of occurrence. In
   addition, a risk assessment is used to evaluate the effectiveness of security policies and
   recommend countermeasures to ensure adequate protection of information technology
   resources.

   NIST SP 800-30, Risk Management Guide for Information Technology Systems, offers a nine
   step systematic approach to conducting a risk assessment that includes: (l) system
   characterization; (2) threat identification; (3) vulnerability identification; (4) control analysis;



                                                    6

    (5) likelihood detennination; (6) impact analysis; (7) risk detennination; (8) control

    recommendation; and (9) results documentation.


    A risk assessment was conducted for BFMS in 2007 that addresses all of the elements outlined
    in the NIST guidance.

VI. Independent Security Control Testing

    A security test and evaluation (ST&E) was completed for BFMS as a part of the system's C&A
    process in July 2007. The ST&E was conducted by an OPM contractor who was operating
    independently from BFMS. The OIG reviewed the controls tested to ensure that they included
    a review of the appropriate management, operational, and technical controls required for a
    system with a "moderate" security categorization according to NIST SP 800-53 Revision 2,
    Recommended Security Controls for Federal Information Systems.

    The ST&E labeled each security control as common (inherited from OPM's IT infrastructure),
    application specific, or hybrid. The application specific and hybrid controls were tested as part
    ofthis ST&E, whereas the testing of common controls is the responsibility of OPM's OCIO.
    However, the controls identified as common controls in the ST&E were not consistent with the
    common controls identified in the BFMS self-assessment of security controls conducted by the
    OCFO. OPM's OCIO has not published a list of common controls for which they maintain
    responsibility, therefore the OCFO was required to make an assumption as to which controls
    are inherited from the OPM infrastructure. In addition, as mentioned in section I, the OCFO
    does not have a clearly defined list of the sub-applications that are part of BFMS.

    Without clearly defined lists of common, hybrid, and application specific controls, or a clear
    understanding of the sub-applications that are part ofBFMS, the BFMS ST&E could not have
    had an adequately defined scope. As a result, certain BFMS applications were not subject to
    proper independent security control testing.

    Recommendation 4
    We recommend that the OCFO and the OCIO determine whether each NIST SP 800-53
    security control applicable to BFMS is common, application specific, or hybrid.

    OCFO Response:
    "CFO agrees with the reconinrendation. The CIO Information Technology Security OffICer (ITSO)
    will determine the agency wide common security controls. The CFO will determine whether the
    security controls are BFMS application speCifIC or hybrid by August 17, 2010."

    Recommendation 5
    Once the categorization of each security control is defined and the specific applications that are
    part of BFMS are determined, a new ST&E should be conducted for BFMS.




                                                   7

      OCFO Response:
      "CFO agrees with the recommendation and will ensure the categorization ofeach security control is
      defined and the specifIC applications that are part ofBFMS are determined, a new ST&E wUl be
      conductedfor BFMS as part ofthe Re CM. "

VII. Security Control Self-Assessment

      F1SMA requires that IT security controls of each major application owned by a federal agency
      be tested on an annual basis. In the years that an independent ST&E is not being conducted on
      a system, the system's owner must conduct an internal self-assessment of security controls.

      The designated security officer (DSO) for BFMS conducted a self-assessment of the system in
      March 2009. The assessment included a review of the relevant management, operational, and
      technical security controls outlined in the NIST SP 800-53 Revision 2. However, as mentioned
      in section I, the OCFO does not have a clearly defined list of the sub-applications that are part
      ofBFMS; therefore, the DSO could not have known all specific applications for which to test
      the security controls.

      In addition, although the BFMS self-assessment indicated that there were zero security
      weaknesses in the system, an OIG review of the same security controls indicated that
      weaknesses do exist (see section XI, below).

      Recommendation 6
      Once the specific applications that are part of BFMS are determined, a new self-assessment of
      security controls should be conducted for BFMS.

      OCFO Response:
      "CFO agrees with the recommendation and willprovide a new assessnrent ofthe security
      controls will be conductedfor BFMS by August 6,1010."

VIII. Contingency Planning and Contingency Plan Testing

      NIST SP 800-34, Contingency Planning Guide for IT Systems, states that effective
      contingency planning, execution, and testing are essential to mitigate the risk of system and
      service unavailability. The OPM IT security policy requires that OPM general support systems
      and major applications have viable and logical disaster recovery and contingency plans, and
      that these plans be annually reviewed, tested, and updated.

      Contingency Plan

      The BFMS Contingency Plan documents the functions, operations, and resources necessary to
      restore and resume BFMS operations when unexpected events or disasters occur. Although the
      BFMS contingency plan closely follows the format suggested by NIST SP 800-34 guidelines,
      several areas of the contingency plan could be improved.



                                                     8
The "recovery operations" section of the BFMS contingency plan outlines high level steps
required to recover the system using alternate resources in a disaster situation. During the
fieldwork phase of this audit, the OCFO described to OIG auditors several procedures that the
OCFO is responsible for in a disaster recovery operation, including:
•	 Running test scripts and comparing "before" and "after" screenshots of the application to
   ensure the integrity of restored applications;
•	 Notifying OPM's Data Center Group of the results of these tests; and
•	 Communicating the status of recovery operations to external parties.

However, the BFMS contingency plan does not contain specific instructions for perfonning
these steps of the recovery operation. Furthermore, as mentioned in section I, the OCFO does
not have a clearly defined list of the sub-applications that are part of BFMS, and therefore the
recovery procedures could not have had an adequately defined scope. As a result, there are
BFMS applications for which the disaster recovery operations have not been tested.

In addition, although recovery teams and personnel have been identified in the BFMS
contingency plan, the plan only lists the job title of each member, and does not specify the
roles and responsibilities assigned to each individual or team. NIST SP 800-34 states that the
"responsibilities" section of a contingency plan must detail the teams and personnel trained to
respond to a disaster. Team members must be listed with their corresponding responsibilities
and tasks.

Recommendation 7
We recommend that the restoration procedures section of the BFMS contingency plan be
expanded to include specific details of each step required by OCFO personnel to recover each
sub-application of BFMS in a disaster situation.

OCFO Response:
"CFO agrees with the recommendation and will expand the IT contingency plan to include
specifu: details for each step required by CFO personnel to recover each sub-application of
BFMS by August 6, 2010."

Recommendation 8
We recommend that the OCFO document the specific roles and responsibilities of teams and
team members assigned contingency response procedures in the responsibilities section of the
contingency plan.

OCFO Response:
"CFO agrees with the recommendation and will expand the IT contingency plan to include
specifu: details for each step required by CFO personnel to recover each sub-application of
BFMS by August 6,2010. This will be done in aform ofaddendum."




                                               9
    Contingency Plan Test

    NIST SP 800"34, Contingency Planning Guide for Information Technology, provides guidance
    for conducting and documenting contingency plan testing. Contingency plan testing is a
    critical element of a viable disaster response capability.

    In FY 2009, the OCFO conducted a table top review of the BFMS contingency plan. However,
    the OCFO did not conduct a scenario-based contingency plan test (to include critical elements
    such as scope, scenario, objectives, logistics, time frame, and participants) as required by
    NIST.

    Recommendation 9
    We recommend that the OCFO conduct a scenario-based contingency plan test in accordance
    with NIST SP 800-34 guidelines.

    OCFO Response:
    "CFO agrees with the recommendation and will conduct a scenario based contingency plan
    test in accordance with NIST 800-34 guidelines by August 17,2010."

IX. Privacy Impact Assessment

   . The E-Governrnent Act of 2002 requires agencies to perform a screening of federal
     information systems to determine if a Privacy Impact Assessment (PIA) is required for that
     system. OMB Memorandum M-03-22 outlines the necessary components of a PIA. The
     purpose of the assessment is to evaluate any vulnerabilities of privacy in information
     systems and to document any privacy issues that have been identified and addressed.

    The OCFO completed an initial screening of the BFMS system and determined that a PIA was
    required for this system. In August 2007, a PIA of the system was conducted in accordance
    with the guidelines and template of the OPM PIA guide. A summary of the BFMS PIA is
    available on OPM's website.

    However, OPM's PIA guide is missing several elements required by the OMB Memorandum.
    Consequently, the BFMS PIA is missing these elements as well. The OMB Memorandum
    states that PlAs must identifY what choices the agency made regarding an IT system or
    collection of information as a result of performing the PIA. In addition, PIAs for major
    applications should reflect more extensive analyses of: consequences of collection and flow of
    information; the alternatives to collection and handling as designed; the appropriate measures
    to mitigate risks identified for each alternative; and the rationale for the fmal design choice or
    business process.

    In addition, there is no evidence that the BFMS PIA has been reviewed by the system owner on'
    an annual basis, as required by OMB.




                                                   10
      Recommendation 10
      We recommend that the OCFO conduct a PIA for BFMS that includes all of the required
      elements from OMB Memorandum M-03-22.

      QCFQ Response:
      "CFQ agrees with the recoltUlU!ndation and will update the PIA to have the required
      elementsfor BFMS by August 6, 2010. "

      Recommendation 11
      We recommend that the OCFO review the BFMS PIA on an annual basis and submit evidence
      of this review to the OCIO.

      OCFQ Response:
      "CFQ agrees with the recoltUlU!ndation and will update the PIA to have the required
      elementsfor BFMS by August 6,2010."

x.	   Plan of Action and Milestones Process

      A Plan of Action and Milestones (POA&M) is a tool used to assist agencies in identifying,
      assessing, prioritizing, and monitoring the progress of corrective efforts for IT security
      weaknesses. OPM has implemented an agency-wide POA&M process to help track known IT
      security weaknesses associated with the agency's information systems.

      The OIO evaluated the BFMS POA&Mand verified that it follows the format ofOPM's
      template, and has been routinely submitted to the ocro for evaluation. We also determined
      that the POA&M contained action items for all security weaknesses identified through various
      security control tests and audits.

      Nothing came to our attention during this evaluation to indicate that there are any current
      weaknesses in the OCFO's management ofPOA&Ms.

XI. mST SP 800-53 Evaluation

      NIST SP 800-53 Revision 2, Recommended Security Controls for Federal Information
      Systems, provides guidance for implementing a variety of security controls for information
      systems supporting the federal government. As part of this audit, the 010 determined whether
      a subset of these controls had been adequately implemented for BFMS, including:
      •	 AC-2 Account Management                     •   IA-I Identification and Authentication
      •	 AC-7 Unsuccessful Login Attempts            •   IA-4 Identifier Management
      •	 AC-II Session Lock                          •   IA-5 Authenticator Management
      •	 AC-13 Supervision and Review -              •   MP-6 Media Sanitization and Disposal
         Access Control                              •   CM-6 Configuration Settings
      •	 AU-2 Auditable Events                       •   PL-4 Rules of Behavior


                                                    11
•	   AU-3 Content of Audit Records               •    PL-6 Security-Related Activity Planning
•	   AU-6 Audit Monitoring, Analysis, and        •    PS-2 Position Categorization
     Reporting
•    AU-8 Time Stamps                            •    PS-4 Personnel Termination
•	   CA-3 Information System Connections         •    PS-5 Personnel Transfer
•	   CM-2 Baseline Configuration                 •    PS-6 Access Agreements
•	   CM-3 Configuration Change Control           •    RA-5 Vulnerability Scanning
•	   CM-4 Monitoring Configuration               •    SA-3 Life Cycle Support

These controls were evaluated by interviewing individuals with BFMS security
responsibilities, reviewing documentation and system screenshots, viewing demonstrations
of system capabilities, and conducting tests directly on the system.

As mentioned in section I, the OCFO does not have a clearly defined list of the sub­
applications that are part ofBFMS. The OIG's evaluation was based on the OCFO's
inventory ofBFMS applications during the fieldwork phase of this audit, and therefore may
not represent the effectiveness of security controls for all BFMS applications.

Although it appears that the majority ofNIST SP 800-53 security controls have been
successfully implemented for BFMS, several tested controls were not fully satisfied.

a)	 Account Management (AC-2)

     The OCFO does not conduct reviews of the user accounts of BFMS applications.
     Although the initial access established for a BFMS user is reviewed and approved,
     there are no periodic audits of user accounts to ensure that each user's specific access
     rights and privileges remains appropriate.

     NIST SP 800-53 Revision 2 control AC-2 requires information system owners to
     periodically (at least annually) review information system accounts. Failure to
     routinely review user accounts increases the risks that users have access to information
     that is not directly related to their job function.

     Recommendation 12
     We recommend that the OCFO establish a formal process for reviewing user accounts
     for appropriateness for each application that makes up BFMS.

     OCFO Response:
     "CFO agrees with the recommendation and will revise the BFMS account
     management to include the lists received by the OCIO IT security team. This should
     be completed by August 6, 2010."

b)	 Auditing (AU-2, AU-3, AU-6)

     Application level auditing has not been established for BFMS applications.


                                                12

   In order to access BFMS applications, a user must authenticate to the mainframe
   through its security software, IBM's Resource Access Control Facility (RACF).
   OPM's OCIO has procedures for logging and auditing users that authenticate to RACF.
   However, the OCIO does not log user authentications to the BFMS applications, or user
   activity within those applications. Without such logs, the OCFO is unable to audit user
   access and activity for BFMS.

   NlST SP 800-53 Revision 2 requires that:
   •	 An information system generates audit records for a series of predefined events
      (control A U-2, Auditable Events);
   •	 Audit records" contain sufficient information to establish what events occurred, the
      sources of the events, and the outcomes of the events" (control AU-3, Content of
      Audit Records);
   •	 The system owner "regularly reviews/analyzes information system audit records for
      indications of inappropriate or unusual activity" (control AU-6 Audit Monitoring,
      Analysis, and Reporting).

   Failure to adequately log and audit activity within each BFMS application increases the
   risk that unauthorized user activity occurs undetected.

   Recommendation 13
   We recommend that the OCFO develop a clearly defined list of user activity that should
   be logged for each BFMS application and then implement the technical controls to
   begin logging this activity. Once the logging capability has been implemented, the
   OCFO should routinely audit/review the log activity.

   OCFO Response:
   "CFO agrees with the recommendation and will work with C/O/BS and the security
   OffICe in determining a mechanismfor this process. We will revise the BFMS account
   management process to include the lists received by the c/o security OffICe. This
   should be completed by August 6, 2010. "

c)	 Rules of Behavior (pL-4)

   All individuals accessing OPM's network environment and the applications that reside
   within it must sign a "Computer User Responsibilities Statement" that outlines the
   appropriate use of the agency's IT resources. However, BFMS users are not required to
   sign a Rules of Behavior document specific to the BFMS applications.

   NIST SP 800-53 Revision 2 requires that "The organization establishes and makes
   readily available to all information system users, a set of rules that describes their
   responsibilities and expected behavior with regard to information and information
   system usage. The organization receives signed acknowledgment from users indicating



                                              13

   that they have read, understand, and agree to abide by the rules of behavior, before
   authorizing access to the information system and its resident information."

   Recommendation 14
   We recommend that a formal Rules of Behavior document be developed for each
   BFMS application and that it be signed by all new and existing users.

   OCFO Response:
   "CFO agrees with the recommendation to implenrent rules ofbehaviorfor BFMS
   that is compliont with the C/O policy. This recommendation wiU be completed by
   August 6,20/0."

d) Personnel Termination (p8-4)

   Five user accounts for one of the BFMS applications, the Federal Financial System,
   remained active after the individual's employment was terminated. Each of these
   user's RACF accounts had been deactivated by the OCIO, which would have prevented
   them from accessing the system after their termination. However, disabling the
   application level accounts provides an extra layer of control to ensure that unauthorized
   users cannot access the system.

   NIST SP 800-53 Revision 2 control PS-4 states that information system access should
   be immediately disabled upon termination of an individual.

   Recommendation 15
   We recommend that the OCFO implement a process for periodically reviewing user
   accounts for each BFMS application to ensure that no terminated employees have
   active access.

   OCFO Response:
   "CFO agrees with the recommendation and will revise the BFMS account
   managenrent procedures from last year. The revised BFMS account managenrent
   procedures wiU contain a separate paragraph for terminating employees. This
   recommendation wiU be completed by July 3/, 2010."




                                             14

                        Major Contributors to this Report

This audit report was prepared by the U.S. Office of Personnel Management, Office of
Inspector General, Information Systems Audits Group. The following individuals
participated in the audit and the preparation of this report:

•
•                     Senior Team Leader
•                IT Auditor




                                          15

                                             Appendix

u.s. OFFICE OF PERSONNEL MANAGEMENT
OFFICE OF TIlE INSPECTOR GENERAL
WASHINGTON, DC

REpORT No. 4A-CF-00-I0-018

Audit ofthe Information Technology Security Controls ofthe US Office of Personnel
Management Benefits Financial Management System

CHIEF FINANCIAL OFFICER RESPONSE - JUNE 15,2010:




CFO Response to OIG Draft Audit Report 4A-CF-OO-IO-018


Recommendation 1

We recommend that CFO develop a clearly defined list of applications that are part ofBFMS.


Action by the CFO:

CFO agrees with the recommendation and will provide a clearly defmed list of applications

related to BFMS by July 31, 2010.


Recommendation 2

We recommend that the CIO review all applications dropped from the BFMS umbrella of systems and

appropriately add them to OPM's system inventory.


Action by the CFO:

CFO agrees with the recommendation and will review all applications in conjunction with the

CIO that do not belong to BFMS wnbrella of systems by July 31, 2010.


Recommendation 3

We recommend that the system interconnection section of the BFMS ISSP be revised to include

important identifiers of the interconnected systems (FIPS 199 categorization, C&A status, and the

authorizing official).


Action by the CFO:

CFO agrees with the recommendation and will work with the CIO in conjunction to determine

identifiers of the interconnected systems by August 6, 2010.


Recommendation 4

We recommend that CFO and CIO determine whether each NIST SP 800-53 security control applicable

to BFMS is common, application specific or hybrid.

Action by the CFO:

CFO agrees with the recommendation. The CIO Information Technology Security Officer (ITSO) will

determine the agency wide common security controls. The CFO will determine whether the security

controls are BFMS application specific or hybrid by August 17,2010.


Recommendation 5

We recommend that once the categorization of each security control is defmed and the specific

applications that are part ofBFMS are determined, a new ST&E should be conducted for BFMS.


Action by the CFO:

CFO agrees with the recommendation and will ensure the categorization of each security control is

defmed and the specific applications that are part of BFMS are determined, a new ST&E will be

conducted for BFMS as part of the Re C&A.


Recommendation 6

We recommend once the specific applications are defmed for BFMS, a new assessment of security

controls should be conducted for BFMS.


Action by the CFO:

CFO agrees with the recommendation and will provide a new assessment of the security controls

will be conducted BFMS by August 6, 2010.


Recommendation 7

We recommend that the restoration procedures section ofthe BFMS contingency plan be expanded to

include specific details of each step required by CFO personnel to recover each sub-application of BFMS

in a disaster situation.


Action by the CFO;

CFO agrees with the recommendation and will expand IT contingency plan to include specific

details for each step required by CFO personnel to recover each sub-application of BFMS by

August 6, 2010.


Recommendation 8

We recommend that CFO document the specific roles and responsibilities ofteams and team members

assigned contingency response procedures in the responsibilities section of the contingency plan.


Action by the CFO:

CFO agrees with the recommendation and will expand IT contingency plan to include specific

details for each step required by CFO personnel to recover each sub-application of BFMS by

August 6, 2010. This will be done in a form of addendum.


Recommendation 9

We recommend OCFO conduct a scenario based contingency plan test in accordance with NIST SP 800­

34 guidelines.


Action by the CFO:

CFO agrees with the recommendation and will conduct a scenario based contingency plan test in

accordance with NIST 800-34 guidelines by August 17, 2010.

Recommendation 10

We recommend CFO conduct a PIA for BFMS that includes all ofthe required elements from OMB

memorandum M-03-22.


Action by the CFO:

CFO agrees with the recommendation and will update the PIA to have the required elements for

BFMS by August 6, 2010.


Recommendation 11

We recommend CFO review the BFMS PIA on an annual basis and submit evidence of this review to

CIO.


Action by the CFO:

CFO agrees with the recommendation and will update the PIA to have the required elements for

BFMS by August 6,2010.


Recommendation 12

We recommend that a formal process for reviewing user accounts for appropriateness for each application

that makes up BFMS.


Action by the CFO

CFO agrees with the recommendation and will revise the BFMS account management to include

the lists received by the OCIO IT security tearn. This should be completed by

August 6, 2010.


Recommendation 13

We recommend that CFO develop a clearly defmed list of user activity that should be logged for each

BFMS application and then implement the technical controls to begin logging this activity. Once the

logging capability has been implemented, CFO should routinely audit/review the log activity.


Action by the CFO

CFO agrees with the recommendation and will work with CIO/ BS and the security office in

determining a mechanism for this process. We will revise thC1 BFMS account management

process to include the lists received by the CIO security office. This should be completed by

August 6,2010.


Authentication is performing by RACF but authorization is performed by Natural Security. DC

security team will meet with BS and CFO to establish a procedure for this process.


Recommendation 14

We recommend that a formal Rules of Behavior document be developed for each BFMS application, and

that it be signed for all new and existing users.


Action by the CFO:

CFO agrees with the recommendation to implement rules of behavior for BFMS that is

compliant with the CIO policy. This recommendation will be completed by August 6,2010.

Recommendation 15
We recommend that the CFO implement a process for periodically reviewing user accounts for each
BFMS application to ensure that no terminated employees have active access.

Action by the CFO:
CFO agrees with the recommendation and will revise the BFMS account management
procedures from last year. The revised BFMS account management procedures will contain a
separate paragraph for terminating employees. This recommendation will be completed by July
31,2010.

This control is already in place. Data Center security team on a weekly basis receives a
Separation file provided by OPM's personnel office. DC security team compares the file
received from HR with the information in the RACF database and if there is a match the Userid
is removed from the system. DC security team has implemented a procedure by which they pass
the information regarding employees separating from OPM and inter-agency employee transfers
to the Help Desk and all the program office DSOs for action.
